No. 21-_______
__________________________________________________________________________
IN THE
SUPREME COURT OF THE UNITED STATES
__________________________________________________________________________
JOSHUA R. JONES,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
__________________________________________________________________________
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Sixth Circuit
__________________________________________________________________________
APPENDIX
__________________________________________________________________________

JENNIFER NILES COFFIN
Assistant Federal Defender
Federal Defender Services
of Eastern Tennessee, Inc.
800 South Gay Street, Suite 2400
Knoxville, Tennessee 37929
(865) 637-7979

Case: 19-5229

Document: 29-2

Filed: 10/19/2020

Page: 1

NOT RECOMMENDED FOR PUBLICATION
File Name: 20a0593n.06
No. 19-5229
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
JOSHUA R. JONES,

)
)
)
)
)
)
)
)
)
)

Petitioner-Appellant,
v.
UNITED STATES OF AMERICA,
Respondent-Appellee.

FILED
Oct 19, 2020
DEBORAH S. HUNT, Clerk

ON APPEAL FROM THE
UNITED STATES DISTRICT
COURT FOR THE EASTERN
DISTRICT OF TENNESSEE

BEFORE: McKEAGUE, GRIFFIN, and BUSH, Circuit Judges.
GRIFFIN, Circuit Judge.
In this appeal, we consider whether a defendant sentenced as a career offender under the
mandatory Sentencing Guidelines regime may invoke the newly announced and retroactive rule of
constitutional law established by the Supreme Court’s holding in Johnson v. United States,
576 U.S. 591 (2015), to meet the one-year statutory deadline for filing a motion under 28 U.S.C.
§ 2255(f)(3).
Previously, we held that Johnson did not extend to such defendants. Raybon v. United
States, 867 F.3d 625, 629–31 (6th Cir. 2017). But now, petitioner Joshua Jones contends that a
pair of recent Supreme Court decisions—Sessions v. Dimaya, 138 S. Ct. 1204 (2018), and United
States v. Davis, 139 S. Ct. 2319 (2019)—abrogated our holding in Raybon, so he may rely on
Johnson to meet the deadline imposed by § 2255(f)(3). The district court rejected Jones’s
argument and denied his § 2255 motion as untimely. We affirm.
1a

Case: 19-5229

Document: 29-2

Filed: 10/19/2020

Page: 2

I.
In 2004, during the pre-Booker era when the Sentencing Guidelines were deemed
mandatory, see United States v. Booker, 543 U.S. 220, 233 (2005), Joshua Jones pleaded guilty to
being a felon in possession of a firearm, in violation of 18 U.S.C. § 922(g)(1), and to conspiracy
to distribute fifty grams or more of cocaine base, in violation of 21 U.S.C. §§ 846, 841(a)(1) and
(b)(1)(A). The district court determined that Jones had two prior convictions that qualified either
as a “crime of violence” or a “controlled substance offense,” meaning that petitioner was classified
as a career offender under § 4B1.2(a) of the then-mandatory United States Sentencing Guidelines.
One of Jones’s prior offenses was a Tennessee conviction for attempted aggravated sexual battery,
which only qualified as a crime of violence under Guidelines § 4B1.2(a)(2)’s residual clause.1 See
U.S.S.G. § 4B1.2(a)(2) (2002) (“The term ‘crime of violence’ means any offense under federal or
state law, punishable by imprisonment for a term exceeding one year, that (1) has as an element
the use, attempted use, or threatened use of physical force against the person of another, or (2) is
burglary of a dwelling, arson, or extortion, involves use of explosives, or otherwise involves
conduct that presents a serious potential risk of physical injury to another.” (emphasis added)).
Petitioner was thus sentenced as a career offender to a total term of imprisonment of 262 months
followed by a ten-year term of supervised release. He did not appeal his conviction.
Thirteen years later, Jones filed a pro se motion under 28 U.S.C. § 2255, collaterally
attacking his career offender classification and sentence. Jones relied on Johnson, wherein the
Supreme Court determined that the residual clause of the Armed Career Criminal Act (ACCA), 18
U.S.C. § 924(e), was unconstitutionally vague. 576 U.S. at 606. While Jones’s motion was

Jones’s unopposed motion to take judicial notice of documents relating to his state-court
convictions is granted.
1

2a

Case: 19-5229

Document: 29-2

Filed: 10/19/2020

Page: 3

pending, the Supreme Court also decided Beckles v. United States, 137 S. Ct. 886 (2017), which
held that the advisory Guidelines “are not subject to a vagueness challenge under the Due Process
clause” and that, as a result, the residual clause of Guidelines § 4B1.2(a)(2) “is not void for
vagueness.” Beckles, 137 S. Ct. at 892. But Beckles left open whether defendants like Jones, who
were sentenced under the mandatory Guidelines regime, could assert vagueness challenges to their
sentences. Id. at 903 n.4 (Sotomayor, J., concurring).
Our court took up the mantle in Raybon, where we held that Johnson did not extend to
those sentenced under the mandatory Guidelines regime. 867 F.3d at 630–31. Relying on Raybon,
the district court here denied Jones’s § 2255 motion as untimely because the newly recognized
constitutional right made retroactive in Johnson did not apply to petitioner, and he was therefore
unable to avail himself of § 2255(f)(3). Jones timely appeals that decision.
II.
We review de novo the district court’s legal conclusions concerning whether Jones’s
petition was timely under 28 U.S.C. § 2255(f). See Jamieson v. United States, 692 F.3d 435, 439
(6th Cir. 2012). That section provides a one-year statute of limitations to bring a § 2255 motion,
beginning on the latest of the following events:
(1) the date on which the judgment of conviction becomes final;
(2) the date on which the impediment to making a motion created by governmental
action in violation of the Constitution or laws of the United States is removed, if
the movant was prevented from making a motion by such governmental action;
(3) the date on which the right asserted was initially recognized by the Supreme
Court, if that right has been newly recognized by the Supreme Court and made
retroactively applicable to cases on collateral review; or
(4) the date on which the facts supporting the claim or claims presented could have
been discovered through the exercise of due diligence.
28 U.S.C. § 2255(f).

3a

Case: 19-5229

Document: 29-2

Filed: 10/19/2020

Page: 4

Jones argues that his 2016 motion was timely under § 2255(f)(3) because he filed it within
one year of the Supreme Court’s decision in Johnson. Johnson held that the residual clause of the
ACCA was unconstitutionally vague because it “both denies fair notice to defendants and invites
arbitrary enforcement by judges. Increasing a defendant’s sentence under the clause denies due
process of law.” Johnson, 576 U.S. at 597. But Jones also acknowledges that our court rejected
this argument in Raybon. 867 F.3d at 629–31. There, we observed that between Johnson and
Beckles, the Supreme Court left undecided whether Johnson’s void-for-vagueness analysis applied
to the mandatory Guidelines regime. Id. at 629. And therefore, “because it [was] an open
question,” the Raybon court reasoned, “it [was] not a ‘right’ that ‘ha[d] been newly recognized by
the Supreme Court’ let alone one that was ‘made retroactively applicable to cases on collateral
review.’” Id. at 630 (quoting 28 U.S.C. § 2255(f)(3)); see also id. at 630–31 (“Raybon’s untimely
motion cannot be saved under § 2255(f)(3) because he is asking for the recognition of a new right
by this court—that individuals have a Constitutional right not to be sentenced as career offenders
under the residual clause of the mandatory Sentencing Guidelines.” (internal quotation marks and
citation omitted)).
Accordingly, because Raybon would otherwise foreclose his claim, Jones takes a different
tack and argues that new developments in the law, and specifically, the Supreme Court’s decisions
in Sessions v. Dimaya, and United States v. Davis “fatally undermine” our precedent and clear the
way for his motion to be timely under § 2255(f)(3). Those cases warrant further discussion.
First, in Dimaya, the issue was whether the federal criminal code’s general definition of
“crime of violence,” see 18 U.S.C. § 16, was unconstitutionally vague because it included a
residual clause akin to the one the Supreme Court struck down in Johnson. 138 S. Ct. at 1210.
But instead of a criminal prosecution, the issue arose in the immigration context because the

4a

Case: 19-5229

Document: 29-2

Filed: 10/19/2020

Page: 5

Immigration and Nationality Act incorporated § 16 into its definition of “aggravated felony,” see
8 U.S.C. § 1101(a)(43)(F), and an immigration judge concluded that Dimaya’s prior convictions
for California first-degree burglary were crimes of violence under § 16(b)’s residual clause,
rendering him deportable. 138 S. Ct. at 1211–12. This factual difference did not prevent the Court
from concluding that the case was decided by a “straightforward application” of Johnson. Id. at
1213. The Court compared the statutes, concluded that they shared the same features that rendered
§ 924(e) unconstitutionally vague, and struck down § 16 for the reasons given in Johnson. See id.
at 1214–16.
Second, in Davis, the Supreme Court considered a vagueness challenge to 18 U.S.C.
§ 924(c)(3)(B), which “threaten[ed] long prison sentences for anyone who use[d] a firearm in
connection with certain other federal crimes.” 139 S. Ct. at 2323. Like Johnson and Dimaya,
§ 924(c)(3)(B) included a residual clause, encompassing felonies “that by [their] nature, involve[ ]
a substantial risk that physical force against the person or property of another may be used in the
course of committing the offense.” § 924(c)(3)(B). The Davis court summarized those cases as
“teach[ing] that the imposition of criminal punishment can’t be made to depend on a judge’s
estimation of the degree of risk posed by a crime’s imagined ‘ordinary case.’” 139 S. Ct. at 2326.
And because § 924(c)(3)(B) did just that, the Davis court struck it down. Id. at 2336.
Jones reads these cases to cast doubt on our decision in Raybon because there, we
interpreted Johnson narrowly and concluded that it did not announce a new rule of constitutional
law that applied beyond the ACCA—reasoning that he says the “Supreme Court has since
repudiated . . . by holding that Johnson’s rule has ‘straightforward application’ in other contexts.”
Put differently, Jones argues that if Johnson invalidates residual clauses that resulted in the
deportation of aliens and triggered mandatory five-year consecutive sentences for crimes

5a

Case: 19-5229

Document: 29-2

Filed: 10/19/2020

Page: 6

committed with firearms, it should also apply to his case because “it involves a residual clause
identical in its text and mode of analysis to the ACCA’s clause and mandate[s] years longer in
prison.”
The government responds that Dimaya and Davis have nothing to do with Raybon or
§ 2255(f)(3). Instead, it views those decisions as evidence that “Johnson only addressed the
ACCA’s residual clause and did not automatically ‘invalidate all residual clauses as void for
vagueness simply because they exhibit wording similar to the ACCA’s residual clause.’”
We find the government’s argument persuasive. Raybon’s holding—that the Supreme
Court has left open whether Johnson’s void-for-vagueness analysis applies to mandatory
Guidelines challenges—remains good law even after Dimaya and Davis applied the same analysis
to strike down residual clauses in other contexts. 867 F.3d at 630. And while the Supreme Court
has had dozens of opportunities to resolve the mandatory Guidelines question, it has thus far
declined to do so. Dissenting from the denial of certiorari in many of those cases, Justices
Sotomayor and Ginsburg confirmed that they do not read the Court’s precedent to have resolved
this issue. See, e.g., Brown v. United States, 139 S. Ct. 14, 15 (2018) (Sotomayor, J., dissenting
from denial of certiorari) (“[T]his Court has thus far left the validity” of sentences enhanced by
the residual clause of the mandatory Guidelines range “an open question.”). This means that
Johnson did not announce a new rule of constitutional law which would apply retroactively to
Jones. See Tyler v. Cain, 533 U.S. 656, 663–64 (2001) (explaining in the context of second or
successive habeas applications under 28 U.S.C. § 2244(b)(2)(A), the “only way” the Supreme
Court can establish a new rule of constitutional law with retroactive effect, is “through a holding”).
Accordingly, we reject Jones’s attempt to stitch together a new rule of constitutional law through
his reading of Dimaya and Davis.

6a

Case: 19-5229

Document: 29-2

Filed: 10/19/2020

Page: 7

In sum, Raybon’s holding—that challenges to the mandatory Guidelines’ residual clause
brought pursuant to Johnson are not timely under § 2255(f)(3)—is binding on the panel because it
has not been overruled en banc or abrogated by the Supreme Court.2 See Wright v. Spaulding, 939
F.3d 695, 700 (6th Cir. 2019). Unless and until that occurs, petitioners like Jones cannot avail
themselves of § 2255(f)(3) to challenge their sentence because Raybon holds the Supreme Court
has not announced a new, retroactive rule of constitutional law that is applicable to them.
III.
For these reasons, we affirm the judgment of the district court.

2

Jones devotes a significant portion of his brief to discussion of how our sister circuits have
resolved this issue. But no matter how deep the disagreement among the lower federal courts, we
are bound to follow our circuit precedent, so discussion of the circuit split is unnecessary to the
resolution of this appeal.
7a

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TENNESSEE
JOSHUA R. JONES,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

)
)
)
)
)
)
)
)
)

Nos.: 3:03-cr-18-TAV-CCS-1
3:16-cv-253-TAV

MEMORANDUM OPINION
Presently before the Court are a motion to vacate, set aside, or correct sentence under
28 U.S.C. § 2255 [Doc. 48] and supplemental § 2255 motion [Doc. 51] filed by Joshua R.
Jones (“Petitioner”), which seek to challenge his classification as a career offender under
the United States Sentencing Guidelines (“USSG”) in light of Johnson v. United States,
135 S. Ct. 2551 (2015). The government has filed a motion to deny and dismiss with
prejudice Petitioner’s § 2255 motions [Doc. 56].
For the following reasons the government’s motion to deny and dismiss with
prejudice Petitioner’s motions [Doc. 56] will be GRANTED, Petitioner’s § 2255 motion
[Doc. 48] and supplemental § 2255 motion [Doc. 51] will be DENIED, and this action will
be DISMISSED WITH PREJUDICE. Petitioner’s motion to defer ruling pending
resolution of Raybon v. United States, 867 F.3d 625 (6th Cir. 2017), cert denied 138 S. Ct.
2661 (2018) [Doc. 68] will be DENIED as moot.

8a
Case 3:03-cr-00018-TAV-CCS Document 69 Filed 01/14/19 Page 1 of 6 PageID #: 137

I.

PROCEDURAL BACKGROUND
On June 19, 2003, Petitioner pled guilty to possession of a firearm by a convicted

felon, in violation of 18 U.S.C. § 922(g)(1), and to conspiracy to distribute fifty grams or
more of cocaine base, in violation of 21 U.S.C. §§ 846, 841(a)(1) and (b)(1)(A) [Doc. 31].
A presentence investigation report (“PSIR”) identified two prior convictions of either a
“crime of violence” or a “controlled substance offense” that qualified Petitioner as a career
offender under § 4B1.1(a) of the United States Sentencing Guidelines (“USSG”): a
conviction for possession of over .5 grams of cocaine for resale and a conviction for
attempted aggravated sexual battery [PSIR ¶¶ 44, 54, 56]. On September 3, 2003,
Petitioner was sentenced as a career offender to a total term of imprisonment of 262
months, to be followed by a total term of supervised release of 10 years [Doc. 38].
Petitioner did not take a direct appeal.
On May 13, 2016, Petitioner filed a pro se § 2255 motion [Doc. 48] challenging his
career offender classification and sentence under Johnson, in which the Supreme Court
determined that the residual clause of the Armed Career Criminal Act (“ACCA”), 18
U.S.C. § 924(e), is unconstitutionally vague, in violation of the Due Process Clause. 135
S. Ct. at 2563. Federal Defender Services then filed a supplemental § 2255 motion [Doc.
51] on Petitioner’s behalf expounding the Johnson claim. Petitioner argues that the
residual clause of § 4B1.2(a) of the USSG, identically worded to the ACCA’s residual
clause, likewise is void for vagueness in light of Johnson and that his conviction for

2
9a
Case 3:03-cr-00018-TAV-CCS Document 69 Filed 01/14/19 Page 2 of 6 PageID #: 138

attempted aggravated sexual battery therefore no longer qualifies as a predicate offense
under the career offender guideline.
While Petitioner’s motion was pending, the Supreme Court decided Beckles v.
United States, 137 S. Ct. 886 (2017), which held that the USSG, which now are advisory,
see United States v. Booker, 543 U.S. 220, 245 (2005), “are not subject to a vagueness
challenge under the Due Process clause” and that, as a result, the residual clause of the
advisory USSG “is not void for vagueness.” Beckles, 137 S. Ct. at 892. Left open by
Beckles, however, was the issue of whether defendants sentenced to terms of imprisonment
pre-Booker, when the USSG were binding on the federal courts, can assert vagueness
challenges to their sentences. Id. at 903 n.4 (J. Sotomayor, concurring).
In light of Beckles, the government filed a motion to deny and dismiss with prejudice
Petitioner’s § 2255 motion [Doc. 56]. Petitioner responded with a supplemental brief
arguing that Beckles exempts only sentences under the advisory USSG from vagueness
challenges, not sentences, such as his, imposed under the pre-Booker mandatory USSG
[Doc. 59]. As a result, Petitioner maintains that the residual clause of the mandatory USSG
is void for vagueness under Johnson [Id.] The government responded by arguing that
Johnson invalidated only the residual clause of the ACCA and that the Supreme Court has
never made that reasoning applicable to the pre-Booker guidelines nor made that holding
retroactive to mandatory-guidelines cases on collateral review [Doc. 62].
Following a reply from Petitioner reiterating his position that Johnson applies to the
mandatory USSG and should be applied retroactively, [Doc. 65], the government filed a
3
10a
Case 3:03-cr-00018-TAV-CCS Document 69 Filed 01/14/19 Page 3 of 6 PageID #: 139

supplemental response, [Doc. 67], asserting that Petitioner’s § 2255 motion should be
dismissed as untimely in light of Raybon, supra, in which the Sixth Circuit held that
Johnson did not provide a new triggering date from which to measure the one-year
limitations period for filing a § 2255 motion under § 2255(f).
II.

ANALYSIS
Section 2255(f) places a one-year period of limitation on all petitions for collateral

relief under § 2255, which runs from the latest of: (1) the date on which the judgment of
conviction becomes final; (2) the date on which the impediment to making a motion created
by governmental action in violation of the Constitution or laws of the United States is
removed, if the movant was prevented from making a motion by such governmental action;
(3) the date on which the right asserted was initially recognized by the Supreme Court, if
that right has been newly recognized by the Supreme Court and made retroactively
applicable to cases on collateral review; or (4) the date on which the facts supporting the
claim or claims presented could have been discovered through the exercise of due
diligence. 28 U.S.C. § 2255(f).
Petitioner did not file a direct appeal in this case so his conviction became final
when the time for filing an appeal expired fourteen days after judgment was entered on
September 4, 2003 [Doc. 38]. See Sanchez-Castellano v. United States, 358 F.3d 424, 427
(6th Cir. 2004) (when no appeal is taken to the court of appeals, the judgment becomes
final upon the expiration of the period in which the defendant could have appealed, even
when no notice of appeal was filed). Petitioner’s § 2255 motion was not filed until May
4
11a
Case 3:03-cr-00018-TAV-CCS Document 69 Filed 01/14/19 Page 4 of 6 PageID #: 140

13, 2016, nearly thirteen years later. Thus, his motion is untimely unless he satisfies one
of the exceptions set forth in § 2255(f).
Petitioner contends that his motion is timely under § 2255(f)(3) because it is based
on Johnson, which triggered a renewed one-year limitation period by recognizing a new
right that applies retroactively.1 It is settled that challenges to ACCA sentences based on
Johnson satisfy the third sub-category of § 2255(f), i.e., the assertion of a newly recognized
right made retroactively applicable to cases on collateral review. Welch, 136 S. Ct. at 1268
(Johnson constitutes a new substantive rule of constitutional law made retroactively
applicable on collateral review); In Re Watkins, 810 F.3d at 381–85. However, Johnson
dealt only with the residual clause of the ACCA, not with the residual clause of the USSG.
Walker v. United States, 710 F. App’x 696, 697 (6th Cir. 2018). Thus, Petitioner’s motion
is untimely unless Johnson recognized a new right that also applies to defendants sentenced
under the pre-Booker mandatory USSG.
This issue was decided in Raybon, which held that whether Johnson applies to the
mandatory guidelines is an “open question” and therefore is not a “’right’ that ‘has been
newly recognized by the Supreme Court’ let alone one that was ‘made retroactively

1

The one-year limitation period for filing a motion to vacate based on a right newly
recognized by the Supreme Court runs from the date on which the Supreme Court initially
recognized the right asserted, not from the date on which the right asserted was made retroactively
applicable. Dodd v. United States, 545 U.S. 353, 357 (2005). Accordingly, Johnson triggered a
renewed one-year period of limitation for challenges to ACCA sentences beginning on the date of
that decision, June 26, 2015, and running until June 26, 2016. Petitioner’s motion was filed on
May 13, 2016, within that one-year period.
5
12a
Case 3:03-cr-00018-TAV-CCS Document 69 Filed 01/14/19 Page 5 of 6 PageID #: 141

applicable to cases on collateral review.’” 867 F.3d at 630 (quoting § 2255(f)(3)).2 As a
result, because Petitioner’s motion fails to satisfy the requirements of § 2255(f)(3), and his
motion does not satisfy any of the other subsections of § 2255(f), it is untimely and must
be denied.3 See Walker, 710 F. App’x at 697; Chubb v. United States, 707 F. App’x. 388,
390 (6th Cir. 2018).
III.

CONCLUSION
For the reasons set forth herein, the Court finds that Petitioner’s § 2255 motion, as

supplemented, is untimely. Accordingly, the government’s motion to deny and dismiss
with prejudice Petitioner’s motion [Doc. 56] will be GRANTED, Petitioner’s § 2255
motion [Doc. 48] and supplemental § 2255 motion [Doc. 51] will be DENIED, and this
action will be DISMISSED WITH PREJUDICE. Petitioner’s motion to defer ruling
pending resolution of Raybon [Doc. 68] will be DENIED as moot.
AN APPROPRIATE ORDER WILL ENTER.

s/ Thomas A. Varlan
CHIEF UNITED STATES DISTRICT JUDGE

2

On December 6, 2017, the Sixth Circuit denied rehearing en banc in Raybon and the
Supreme Court denied a petition for writ of certiorari on June 18, 2018. 138 S. Ct. 2661 (2018).
The Supreme Court to date has not recognized that individuals have a constitutional right not to
be sentenced as career offenders under the residual clause of the pre-Booker mandatory USSG.
3

The Supreme Court has held that the one-year limitation period set forth in § 2255(f) is
not jurisdictional, Day v. McDonough, 547 U.S. 198, 205 (2006), and thus may be subject to
equitable tolling in appropriate cases. Holland v. Florida, 560 U.S. 631, 645 (2010). The Court
finds no basis for equitable tolling here.
6
13a
Case 3:03-cr-00018-TAV-CCS Document 69 Filed 01/14/19 Page 6 of 6 PageID #: 142

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TENNESSEE
JOSHUA R. JONES,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

)
)
)
)
)
)
)
)
)

Nos.: 3:03-cr-18-TAV-CCS-1
3:16-cv-253-TAV

JUDGMENT ORDER
For the reasons set forth in the accompanying Memorandum Opinion, it hereby is
ORDERED and ADJUDGED that the government’s motion to deny and dismiss with
prejudice Petitioner’s § 2255 motion [Doc. 56] is GRANTED, Petitioner’s § 2255 motion
[Doc. 48] and supplemental § 2255 motion [Doc. 51] are DENIED, and this action is
DISMISSED WITH PREJUDICE. Petitioner’s motion to defer ruling pending Raybon
[Doc. 68] is DENIED as moot.
Should Petitioner give timely notice of an appeal from this Order, such notice will
be treated as an application for a certificate of appealability, which is hereby DENIED
since he has failed to make a substantial showing of the denial of a constitutional right or
to present a question of some substance about which reasonable jurists could differ. See
28 U.S.C. § 2253(c)(2); Fed. R. App. P. 22(b); Slack v. McDaniel, 529 U.S. 473, 484
(2000). Additionally, the Court has reviewed this case pursuant to Rule 24 of the Federal
Rules of Appellate Procedure and hereby CERTIFIES that any appeal from this action
would not be taken in good faith and would be totally frivolous. Therefore, any application
14a
Case 3:03-cr-00018-TAV-CCS Document 70 Filed 01/14/19 Page 1 of 2 PageID #: 143

by Petitioner for leave to proceed in forma pauperis on appeal is DENIED. See Fed. R.
App. P. 24.
The Clerk of Court is DIRECTED to CLOSE the civil case associated with
Petitioner’s § 2255 motion at No. 3:16-cv-253.
IT IS SO ORDERED.

s/ Thomas A. Varlan
CHIEF UNITED STATES DISTRICT JUDGE

ENTERED AS A JUDGMENT
s/ John L. Medearis
CLERK OF COURT

2
15a
Case 3:03-cr-00018-TAV-CCS Document 70 Filed 01/14/19 Page 2 of 2 PageID #: 144

